Audit of USAID’s Bureau for Asia and the
Near East Monitoring of the Government of
Pakistan’s Compliance with the Provisions of
USAID Grant No. 391-K-005
Audit Report No. 0-000-03-001-F
January 7, 2003




                  Washington, D.C.
This page intentionally left blank.
January 7, 2003


MEMORANDUM

FOR:           DAA/ANE, Mr. Gordon West

FROM:          IG/A/FA, Alvin A. Brown

SUBJECT: Audit of USAID’s Bureau for Asia and the Near East (ANE)
Monitoring of the Government of Pakistan’s Compliance with the Provisions of
USAID Grant No. 391-K-005 (Report No. 0-000-03-001-F)

This memorandum is our final report on the subject audit. In finalizing this report,
we considered your comments on our draft report and have included your
response as Appendix II

This report includes three recommendations for your action. Based on your
written comments, a management decision has been reached on
Recommendation No. 2. Information related to your final action on this
recommendation should be provided to USAID’s Office of Management
Planning and Innovation.

Recommendation Nos. 1 and 3 do not yet have a management decision.
Please contact us, within 30 days, of any actions planned or taken to reach a
management decision on these recommendations.

The OIG appreciates the cooperation and courtesies extended to our staff during
the audit.




                                                                                1
Table of   Summary of Results                                                3
Contents
           Background                                                        4

           Audit Objective                                                   4

           Audit Findings                                                    4

                  Did USAID’s Bureau for Asia and the Near East
                  monitor the grant activity of the Government of Pakistan
                  to ensure its compliance with the terms of
                  Grant No. 391-K-005, to be used as reimbursement of debt
                  paid, and service of debt, to the U.S., World Bank,
                  Asian Development Bank or International Monetary Fund?

                         Grant Design and Planning                           5

                         ANE Monitoring of Pakistan Agreement                7

                         Accumulated Interest form the Separate Dollar   10
                         Account

           Management Comments and Our Evaluation                        12

           Appendix I - Scope and Methodology                            14

           Appendix II - Management Comments                             15




                                                                                 2
Summary of
             “Did USAID’s Bureau for Asia and the Near East (ANE) monitor the grant
Results      activity of the Government of Pakistan to ensure its compliance with the terms
             of Grant No. 391-K-005 (the grant) to be used as reimbursement of debt paid,
             and service of debt, to the U.S., World Bank, Asian Development Bank or
             International Monetary Fund?”

             The OIG has determined that USAID/ANE did not design the grant to allow for
             effective oversight and did not effectively monitor the Government of Pakistan’s
             compliance with certain provisions of the grant. Specifically, the OIG has
             determined that;

                •   USAID/ANE officials did not secure authorizations from the Government
                    of Pakistan to have loan records released by each of the Government of
                    Pakistan’s creditors to corroborate loan payment data provided by the
                    Government of Pakistan (see p. 5);

                •   USAID/ANE officials did not obtain timely required reports from the
                    Government of Pakistan on the use of the separate dollar funds and the
                    status of the Separate Dollar Account, as required by the agreement (see p.
                    7);

                •   USAID transferred grant funds into an interest-bearing account at the
                    Federal Reserve Bank of New York, although Article V, Section 5.1 of the
                    agreement requires grant funds to be deposited into a non-interest-bearing
                    account (see p. 10). ANE also did not establish procedures to ensure that
                    interest earned was returned to USAID.

             These conditions existed largely because ANE did not fully consider its monitoring
             requirements prior to the grant award or during the Government of Pakistan’s use of
             the award. As a result, ANE officials had no assurance that the grant funds were
             used in accordance with the terms of the grant agreement, until after the
             Government of Pakistan expended the funds.

             ANE had not monitored, in a timely way, the Government of Pakistan’s compliance
             with Section 5.2(a) of the grant agreement (see p. 9). Section 5.2(a) requires the
             Government of Pakistan to transfer budget resources to the poverty reduction and
             social development program in an amount commensurate to the amount of the grant
             during the fiscal year ended June 2002. According to the Government of Pakistan’s
             own records, submitted to ANE in April 2002, the Government of Pakistan
             budgeted only about 14 billion Rupees (approximately $230 million or 38 percent
             of the grant funds) on these sectors during the fiscal year ended June 2002.



                                                                                            3
                  Despite these issues, the OIG found no evidence that grant funds were not used for
                  debt relief, and the Government of Pakistan was very cooperative in responding to
                  USAID/ANE’s varied requests for access to its loan payment information at each of
                  its creditors, and to its banking records related to the grant account at the Federal
                  Reserve Bank of New York.


 Background       On September 18, 2001, the 107th Congress enacted Public Law 107-38 making
                  emergency supplemental appropriations for fiscal year 2001 for additional disaster
                  assistance for anti-terrorism initiatives, for assistance in the recovery from the
                  tragedy that occurred on September 11, 2001, and for other purposes.

                  On November 15, 2001, the Administration provided a $600 million cash transfer
                  to the Islamic Republic of Pakistan, a key front-line coalition partner in our global
                  campaign against terrorism. The money was to be used for the (1) reimbursement
                  of loan payments made by the Government of Pakistan between September 11,
                  2001 and November 15, 2001 and (2) loan payments to each of several of the
                  Government of Pakistan’s creditors identified in the agreement. Grant funds were
                  to be used by the Government of Pakistan to meet foreign exchange needs,
                  pursuant to Article II of the agreement, to service its debt owed to the
                  Government of the United States of America, World Bank, Asian Development
                  Bank, or International Monetary Fund and for other purposes or uses as agreed to
                  in writing between the United States and Pakistan. In any case, no grant proceeds
                  were to be used to finance, reimburse for, or service debts related to, the purchase
                  of military or police equipment and other ineligible uses outlined in subsequent
                  guidance. Therefore, the grant was to free the Government of Pakistan’s domestic
                  revenues for spending on its poverty reduction and social development program
                  as outlined in section 5.2 of the agreement.


Audit Objective   Our review addressed the following question:

                  “Did USAID’s Bureau for Asia and the Near East (ANE) monitor the grant
                  activity of the Government of Pakistan to ensure its compliance with the terms of
                  Grant No. 391-K-005 (the grant) to be used as reimbursement of debt paid, and
                  service of debt, to the U.S., World Bank, Asian Development Bank or
                  International Monetary Fund?”

                  Appendix I provides a complete discussion of the scope and methodology for
                  this audit.



Audit Findings    “Did USAID’s Bureau for Asia and the Near East (ANE) monitor the grant
                  activity of the Government of Pakistan to ensure its compliance with the
                  terms of Grant No. 391-K-005 (the grant) to be used as reimbursement of

                                                                                                  4
debt paid, and service of debt, to the U.S., World Bank, Asian Development
Bank or International Monetary Fund?”

ANE did not effectively monitor the Government of Pakistan’s compliance with
certain provisions of the agreement until after the Government of Pakistan had
expended the funds, primarily because of design shortcomings related to the
instrument and because monitoring procedures were not fully implemented. Most
of the deficiencies can be corrected in the future through the establishment of
agreements that provide for effective USAID oversight, and through the
implementation of grant monitoring procedures. Accordingly, the OIG makes
three recommendations to address these deficiencies.

The Grant Award to Pakistan was not Designed Effectively

USAID/ANE did not monitor or compare, in a timely and effective way,
banking and creditor activity associated with the $600 million cash transfer to
the Government of Pakistan. USAID/ANE did not monitor this activity
effectively because it did not design the grant to require authorizations to access
Government of Pakistan creditor and banking records as a condition of the
agreement. ANE officials did not ultimately receive these authorizations until
after our audit began. As a result, until our audit fieldwork was completed,
ANE officials had no assurance that the funds were used in accordance with the
terms of the agreement.

On November 19, 2001, USAID’s Office of Financial Management funded a
grant account with $600 million at the Federal Reserve Bank of New York for
the purpose of holding and disbursing funds to specific creditors, as indicated in
USAID Grant Number 391-K-005 issued on November 15, 2001. Grant funds
were transferred to this account under the condition that the Government of
Pakistan provides USAID/ANE with regular statements on the account’s activity.
However, USAID/ANE did not receive this information in a timely manner and,
even after its receipt, could not compare Government of Pakistan creditor records
with Federal Reserve Bank of New York account records because ANE did not
secure proper authorizations to review this information.

The OIG could not reconcile Federal Reserve Bank of New York account
information with payment records provided by the Government of Pakistan
because the activity identified in the Government of Pakistan payment records
did not resemble the activity identified in the Federal Reserve Bank of New York
records in any way. Activity within the grant account at the Federal Reserve
Bank of New York represented transfers of large sums of money - not individual
payments as indicated in the Government of Pakistan records provided to ANE.

For example, an analysis of Federal Reserve Bank of New York account activity
indicated that $531.2 million was transferred from Pakistan’s grant account to
Pakistan’s general (PakGen) Federal Reserve Bank of New York account -

                                                                               5
predominantly after the Government of Pakistan indicates that it had expended
USAID grant funds. The Federal Reserve Bank of New York records further
showed that the Government of Pakistan only made $74.4 million of fund
payments or account transfers directly to any of the creditors identified in the
agreement. Since the Government of Pakistan was paying its loans without
significant Federal Reserve Bank of New York account activity, USAID/ANE
officials could have reasonably concluded that Government of Pakistan was
using another source of funds to pay its creditors, prompting ANE to question
whether or not grant funds had been commingled (see last paragraph in this
section). USAID/ANE officials were not aware of this, however, until October
2002. Had ANE obtained current account information as required in the
agreement, it could have asked the Government of Pakistan and the Federal
Reserve Bank of New York for an explanation of much of the activity in the
account.

Several of the Government of Pakistan’s creditors would not release information
to USAID without specific authorization from the Government of Pakistan.
Therefore, on September 13, 2002, ANE requested that the Government of
Pakistan provide such authorizations. ANE received authorizations for release of
Asian Development Bank (ADB) and Federal Reserve Bank of New York
information on October 5, 2002, but authorization for the release of World Bank
information was not received until October 29, 2002. The release of these
authorizations were delayed due to several misunderstandings ANE had with
respect to what information each individual creditor required from ANE in its
request. As a result, the World Bank and ADB confirmations were not received
until November 2002.

Because ANE did not receive authorizations to review creditor and banking
records, it also was not aware that the Government of Pakistan had possibly not
complied with Section 5.1 of the agreement, which disallowed the commingling
of grant funds with funds from any other sources. Section 5.1 of the agreement
states, “The Grantee agrees to establish a separate, non-interest bearing dollar
account in the Federal Reserve Bank of New York (the ‘Separate Dollar
Account’) for the deposit of the Grant, and shall not commingle the Grant with
funds from any other source.”

As mentioned earlier, the OIG determined that the Government of Pakistan did
not comply with the agreement when it transferred $531.3 million (89 percent) of
the grant funds between the Federal Reserve Bank of New York grant account
and PakGen account. These transfers made it impossible for us to confirm
payments to the Government of Pakistan’s creditors using banking records. Had
USAID/ANE required authorizations to access Federal Reserve Bank of New
York records as a condition of the grant, it could have identified account activity
that did not comply with the agreement on a timely basis, including the transfer
of funds to the PakGen account - the details of which USAID has no information.


                                                                             6
Recommendation No. 1: We recommend that USAID’s Bureau for Asia and
the Near East implement procedures to obtain third party authorizations
necessary to monitor its cash transfer grant awards to the Government of
Pakistan and all other foreign government grantees.

ANE Monitoring of Pakistan Grant Agreement was not Timely

USAID/ANE did not receive:

•   timely loan information from the Government of Pakistan’s creditors,

•   timely loan payment documentation from the Government of Pakistan, or

•   useful account information from the Federal Reserve Bank of New York,
    where the grant funds were held (see previous finding).

This condition existed because ANE did not implement procedures to monitor
the grant on an ongoing basis. The OIG noted that USAID/ANE had taken steps,
throughout the grant period, to monitor the Government of Pakistan’s
compliance with the agreement, but that many issues were left unresolved until
after the funds were expended. At the time our fieldwork was completed in
October 2002, ANE could not fully determine if the Government of Pakistan
complied with Article II of the agreement or if the Government of Pakistan used
USAID grant funds to service debt owed to the World Bank and the Asian
Development Bank - representing, according to the Government of Pakistan,
about 78 percent of the grant funds expended to service debt payments.

According to Article II of the agreement, “… grant proceeds will be used to: (a)
Service debt payment to the Grantee which are owed to the Government of the
United States of America, World Bank, Asian Development Bank, or
International Monetary Fund; (b) Reimburse for debt payments by the Grantee
between September 11, 2001 and the date of this Agreement to the Government
of the United States of America, World Bank, Asian Development Bank, or
International Monetary Fund….”

Section 5.4 of the agreement states that “… the Grantee shall provide USAID
with quarterly reports on the uses of Separate Dollar Account funds and the
status of the Separate Dollar Account until the funds are fully disbursed for the
purposes specified in Article II, including all dollar deposits into and
disbursements from the account. Each report shall include copies of monthly
bank statements pertaining to the account.”

When the OIG began the audit on May 21, 2002, it discovered that, ANE had not
yet received the information identified in Section 5.4. Therefore, in order to
obtain initial information on the Government of Pakistan’s grant activity to begin
the audit, the OIG requested that ANE obtain loan payment information from the

                                                                              7
Government of Pakistan, as required by the agreement. ANE formally requested
this information on May 31, 2002, and received it on June 28, 2002. A summary
of the loan payment information provided by the Government of Pakistan is as
follows:

Payments Made Prior to November 15, 2001

                  Creditor                               Amount
Asian Development Bank (ADB)                       $113,829,422
World Bank (WB)/International Development          $ 19,508,948
Association (IDA)
WB/International Bank for Reconstruction and       $ 80,277,855
Development (IBRD)
                   Total                           $213,616,225

Payments Made on or Subsequent to November 15, 2001

                    Creditor                              Amount
ADB                                                $ 96,465,384
WB/IDA                                             $ 41,710,723
WB/IBRD                                            $120,091,872
IMF                                                $114,593,983
U.S. Government                                    $ 13,521,813
                      Total                        $386,383,775

In accordance with the agreement, and as noted previously, all loan payments
made by the Government of Pakistan between September 11, 2001 and
November 15, 2001 were to be reimbursed directly to the Government of
Pakistan. Remaining grant funds were to be used specifically to make payments
against existing loans with each of the Government of Pakistan’s identified
creditors. As a result of this debt relief, the Government of Pakistan, during its
fiscal year ending June 30, 2002, was to transfer budget resources to its poverty
reduction and social development programs in an amount commensurate with the
amount of the grant, as indicated in Section 5.2 of the agreement. According to
the Government of Pakistan records summarized above, Pakistan disbursed all
$600 million by April 15, 2002. The reimbursement on the loan payments (those
loan payments identified by the Government of Pakistan as having been paid
between September 11, 2001 and November 15, 2001) amounted to
$213,616,225. Loan payments made after November 15, 2001, amounted to
$386 million.

At the time it was awarded, the $600 million grant was equal to approximately
36.6 billion rupees (Rs). The Government of Pakistan’s own budget records
showed that, as a result of the USAID award, an additional Rs.14 billion (38
percent of the grant funds) would be spent on social sectors during the fiscal year
ended June 30, 2002, with the balance of Rs.22.6 billion (62 percent of the grant
                                                                              8
funds) to be used for budgetary support. This would not be in compliance with
Section 5.2 of the agreement, which requires an amount equivalent to 100
percent of the grant funds to be spent on social sectors (including poverty
reduction and social development). Because the OIG could not confirm whether
or not the Government of Pakistan used these funds for such programs within
Pakistan - or how the Government of Pakistan defines “budgetary support” - it
focused the audit on confirming the Government of Pakistan’s loan payment
records with those of its creditors. As of the completion of our fieldwork in
October 2002, the OIG had no information that ANE had contacted the
Government of Pakistan for an explanation of its information. In December
2002, USAID/ANE officials provided us with additional information it had
received from the Government of Pakistan related to its fiscal year 2002 program
expenditures, and USAID/ANE officials intend to continue to monitor program
activity within Pakistan.

As mentioned in the previous section, loan payment information from the
Government of Pakistan’s creditors was not immediately available because ANE
did not secure proper authorizations from each of the identified creditors in a
timely manner. This information would have provided corroborating
information required to successfully monitor the grant’s performance and could
have been reconciled to records provided by the Government of Pakistan.
USAID/ANE ultimately received some type of confirmation from the following
creditors:

   •   U.S. Department of Agriculture/Commodity Credit Corporation
   •   Export-Import Bank of U.S.
   •   USAID
   •   International Monetary Fund
   •   World Bank Group
   •   Asian Development Bank

Although the payment information from the Government of Pakistan and the
payment information from each of its creditors did not match exactly, each of
these creditors indicated that the Government of Pakistan is current on its loan
payments, and the OIG found no evidence that grant funds were not used for debt
relief. Also, the Government of Pakistan was very cooperative in responding to
ANE’s varied requests for access to its loan payment information at each of its
creditors.

Recommendation No. 2: We recommend that USAID’s Bureau for Asia and
the Near East implement procedures to monitor its grant agreements on an
ongoing basis.




                                                                           9
Accumulated Interest from the Separate Dollar Account was not Collected

In meetings conducted with the Ministry of Finance officials in January and
May 2002, ANE requested that the Government of Pakistan comply with the
reporting requirements of the agreement and also sent written requests for these
documents. However, the Government of Pakistan did not initially comply with
ANE’s attempts to acquire this information. Consequently, USAID/ANE did
not monitor, in a timely manner, the Separate Dollar Account in the Government
of Pakistan’s name at the Federal Reserve Bank of New York. As a result,
although aware of the nature of the account, ANE did not obtain information on
interest accumulated within the account until ten months after the grant was
awarded. This condition existed because ANE did not initially realize the level
of monitoring that was required to ensure the Government of Pakistan’s
compliance with the agreement. As of October 8, 2002, over $4 million
remained in the account even though the Government of Pakistan’s records
indicate that the entire $600 million had been disbursed.

USAID’s Financial Management Division transferred the grant funds into a
separate account established by the Government of Pakistan at the Federal Reserve
Bank of New York. This account was interest bearing, and not in compliance with
Section 5.1 of the agreement because the Federal Reserve Bank of New York
does not allow funds to be deposited and remain idle in a non-interest-bearing
account. According to one Federal Reserve Bank of New York official, idle
account funds at the Federal Reserve Bank of New York are either used to
purchase short-term Treasury securities or are invested in overnight instruments
that allow the account to accumulate interest nightly. Therefore, it was difficult
for the Government of Pakistan to comply with Section 5.1 of the agreement as
designed. This highlighted the need for USAID to make arrangements in
advance of the award to ensure that interest was not earned in an account
designated for grant funds.

Section 5.4 of the agreement requires the Government of Pakistan to provide
USAID with quarterly reports on the uses of the Separate Dollar Account funds
and the status of the Separate Dollar Account until the funds are fully disbursed for
the purposes specified in Article II, including all dollar deposits into, and
disbursements from, the account. Each report was to include copies of monthly
bank statements pertaining to the account.

USAID/ANE officials believed the account would be open and closed within a
short period of time and also believed that the Government of Pakistan would
make only a few large payments to liquidate the account. ANE officials
therefore concluded that accounting for a small amount of interest would not be
worth a considerable effort. However, since the account was open almost ten
months longer than anticipated, at least $4.3 million of interest was earned (see
following paragraphs).

                                                                               10
USAID/ANE did not receive Federal Reserve Bank of New York statements that
would show disbursement from, deposits to, and interest accumulated within the
until account ten months after the grant was awarded. The information that the
Federal Reserve Bank of New York ultimately provided ANE only included
individual transactions with no opening or closing balances. As a result, the OIG
was unable to determine the exact amount of interest earned in the account and the
closing balance of the Separate Dollar Account. A separate analysis performed by
ANE in October 2002 determined that approximately $5 million of interest
accumulated in the account. However, as mentioned previously, had ANE been
receiving timely reporting information, it could have monitored account activity
that was not in compliance with the agreement on an ongoing basis and resolved
these issues earlier.

Article VI Section 6.2 of the agreement states, “In the case of any utilization of the
Grant which is not supported by valid documentation in accordance with this
Agreement, or which is not made or used in accordance with this Agreement,
USAID may require the Grantee to refund the amount of such disbursement in
U.S. dollars to USAID within sixty (60) days after receipt of request therefore.”
The OIG considers the accumulated interest held in the account to meet the
definition of an unauthorized use of funds referred to in this section.

As mentioned earlier, an October 2002 ANE analysis determined that
approximately $5 million of interest accumulated in the account since its
inception. During the same period, ANE worked with Government of Pakistan
and Federal Reserve Bank of New York officials to collect $4.3 million from the
account in two separate installments during October 2002. Yet, ANE has not
determined the reason for the difference between the $4.3 million of interest
collected and the $5 million of interest that ANE determined had accumulated in
the account.

Recommendation No. 3: We recommend that USAID’s Bureau for Asia and
the Near East identify and collect the difference between interest remitted
by the Government of Pakistan and total interest earned in the Separate
Dollar Account associated with USAID Grant Number 391-K-005.




                                                                                11
Management       In its response, USAID’s Bureau for Asia and the Near East accepted the
Comments and     three recommendations in the draft report.
Our Evaluation
                 Recommendation No. 1 stated that USAID’s Bureau for Asia and the
                 Near East should implement procedures to obtain third party
                 authorizations necessary to monitor its cash transfer grant awards to the
                 Government of Pakistan and all other foreign government grantees. In
                 response to Recommendation No. 1, ANE stated that it will include
                 provisions in future agreements which will require the grantee to seek the
                 timely submission of information from third parties that may be
                 necessary for USAID to monitor ANE grant awards to the Government of
                 Pakistan and all other foreign government grantees, as appropriate to U.S.
                 foreign policy considerations. Also, on January 6, 2003, USAID/ANE
                 issued a memorandum to its Office Directors related to the
                 implementation of procedures for cash transfer agreements. The OIG has
                 considered this memorandum in our evaluation of the ANE comments to
                 our draft report.

                 In its response, ANE refers to the implementation of a requirement for
                 grantees to seek information from third parties, as necessary. In its
                 January 6, 2003 memorandum, ANE outlined procedures to be completed
                 before determining whether it will require third party authorizations from
                 its grantees in future cash transfer grant agreements. The OIG agrees that
                 the procedures to be implemented by USAID/ANE represent a step in the
                 right direction and will help to avoid future problems related to USAID’s
                 access to third party information. However, since the recommendation
                 refers to cash transfer grant awards at all foreign government grantees, a
                 management decision has not yet been reached. To reach a management
                 decision ANE must ensure that USAID’s Office of Policy, Planning, &
                 Coordination (PPC) accepts these procedures for all of USAID. Once the
                 procedures are accepted by PPC for cash transfers made to all foreign
                 government grantees, a management decision will be reached.

                 Recommendation No. 2 stated that USAID’s Bureau for Asia and the
                 Near East should implement procedures to monitor its grant agreements
                 on an ongoing basis. In response to Recommendation No. 2, ANE stated
                 that it will implement procedures to enforce, on an ongoing basis, its cash
                 transfer grant requirements. Also, in its January 6, 2003 memorandum to
                 its Office Directors, ANE stated its intentions to enforce the requirements
                 of its cash transfer grant agreements over the life of each agreement.

                 Since ANE has agreed to implement procedures to monitor its cash
                 transfer grant agreements on an ongoing basis, a management decision is
                 reached on Recommendation No. 2. Once the procedures are accepted by

                                                                                      12
PPC and implemented throughout USAID, they should be forwarded to
USAID’s Office of Management Planning & Innovation for final action.

Recommendation No. 3 stated that USAID’s Bureau for Asia and the Near
East should identify and collect the difference between interest remitted by
the Government of Pakistan and total interest earned in the Separate Dollar
Account associated with USAID Grant Number 391-K-005. In response to
Recommendation No. 3, ANE indicated that it has collected more than the
$4.3 million referred to in our audit, and that a further reconciliation was
forthcoming. ANE stated that it has instructed USAID/Islamabad to
identify and collect the difference between interest remitted by the
Government of Pakistan and total interest earned in the Separate Dollar
Account of USAID Grant Number 391-K-005.

In addition to the above actions, ANE will need to (1) identify the specific
amount of the difference between interest earned and interest remitted to
USAID, and (2) agree to collect any additional amount due before a
management decision is reached.

We have also made certain revisions and clarifications to language in the
draft report suggested by ANE, as appropriate.

The complete text of management comments is contained in Appendix II.
ANE also provided seven attachments with their comments that are not
included.




                                                                       13
                                                                    Appendix I


Scope and     Scope
Methodology
              This audit was conducted in accordance with generally accepted
              government auditing standards to determine whether USAID/ANE
              effectively monitored the Government of Pakistan’s compliance with
              USAID Grant No. 391-K005. The OIG obtained an understanding of the
              grant agreement, the roles of ANE and Government of Pakistan in the
              contract and the laws related to the implementation of the grant.

              The audit started on May 21, 2002, and the fieldwork ended on October
              28, 2002. Because of the urgency associated with this report, the scope
              was limited. The OIG relied on the information provided by
              USAID/ANE, the Government of Pakistan, and confirmation requests to
              Pakistan’s creditors. However, the scope was limited to the requirements
              identified in the grant agreement and the OIG did not verify the accuracy
              of the Quarterly Reports received from the Government of Pakistan,
              which reflect changes in the planned and actual budgets and transfer of
              funds for poverty reduction and social development programs within
              Pakistan. The OIG also did not audit the significant management
              controls of USAID’s Bureau for Asia and the Near East.

              Methodology

              In accomplishing our audit objectives, the OIG reviewed PL 107-38, the
              Presidential Determination No. 2001-28, the grant agreement, the
              Pakistani Quarterly Reports, grant records at financial institutions, and
              information from creditors of the Government of Pakistan.

              The OIG reviewed the records associated with the grant account,
              confirmed that the opening balance was equal to the grant amount, and
              attempted to follow transactions into and out of the account. The OIG
              examined the list of Pakistan’s creditors paid from the grant and ensured
              that it is in compliance with the agreement and identified any exceptions.
              The OIG also verified disbursements made to each organization via
              confirmation requests, and reviewed correspondence between the
              Government of Pakistan and the United States government.




                                                                                  14
                                                                         Appendix II
                                                                         Page 1 of 6


 Management
MEMORANDUM
Comments
              TO:            AIG/A/FA, Alvin A. Brown

              FROM:          SDAA/ANE, Gordon H. West

              SUBJECT: Response to the Audit of USAID/ANE Monitoring of the
              Government of Pakistan’s (GOP) Compliance with the Provisions of
              USAID Grant No. 391-K-005 (Report No. 0-000-03-001-F)

              Summary

                      USAID/ANE management accepts the OIG draft recommendations.
              With regards to Recommendation No. 1, ANE will include provisions in
              future agreements which will require the grantee to seek the timely
              submission of information from third parties that may be necessary for
              USAID to monitor ANE grant awards to the Government of Pakistan and
              other foreign government grantees, as appropriate to U.S. foreign policy
              considerations. With regard to Recommendation No. 2, ANE will
              implement procedures to enforce on an ongoing basis its cash transfer grant
              requirements. With regard to Recommendation No. 3, ANE has instructed
              USAID/Islamabad to identify and collect the difference between interest
              remitted by the Government of Pakistan and total interest earned in the
              Separate Dollar Account of USAID Grant Number 391-K-005.

              The Importance of this Grant Agreement

                       Pakistan has been and continues to be a critical frontline state in
              the war against terrorism. The Government of Pakistan (GOP) has
              cooperated fully with the US-led efforts to defeat terrorism and in doing
              so has carried a substantial economic and political burden. In its effort to
              assist the GOP, the U.S. Government signed the Program Assistance
              Grant Agreement (No. 391-K-005) on November 15, 2001, little more
              than two months after the terrorist attacks of September 11. The decision
              to provide this type of assistance to the GOP furthered U.S. foreign
              policy as indicated by the U.S. Department of State and was clearly in our
              best interests. The Grant Agreement provided emergency economic
              assistance in a timely manner assisting the GOP in maintaining political
              stability and providing relief to the Pakistani people.

                     The grant served its purpose. The GOP used the funds to service
              debt payments of which over $13.5 million went toward debts to U.S.
              Government agencies. The remainder was used to pay down debts with
              the World Bank, the International Monetary Fund, and the Asian
              Development Bank. The grant provided by the U.S. Government enabled
                                                                                   15
                                                            Appendix II
                                                            Page 2 of 6
the GOP to re-allocate funds within its budget in order to protect the
budgeted levels for specific social sector and poverty reduction programs
during the Government of Pakistan’s FY 2001–2002. The GOP
continues to be cooperative in providing information as part of the Grant
Agreement. Documentation provided by the Ministry of finance
indicated that over $1.6 billion was spent on qualified poverty reduction
and social development programs as specified in the Grant Agreement.

The Grant Agreement Design and Implementation

        The ANE Bureau took care in the design and implementation of
this Grant Agreement. The bureau went so far as to send a memo from
the ANE Assistant Administrator to the IG requesting the OIG’s
assistance during the development stages of the agreement back in
October 2001.

        The complexity of the situation immediately after the terrorist
attacks of September 11, helped drive the process for crafting, signing
and implementing the Grant Agreement. U.S. Foreign Policy
requirements accelerated the grant making process including the manner
in which the grant funds were disbursed. One of the features the ANE
Bureau built into the design--the requisite non-interest bearing account--
was meant to facilitate the establishment of a repository for the funds in
an expedited manner. Though receiving assurances that this condition
had been met, upon discovery to the contrary, the ANE Bureau quickly
raised the issue with the GOP in December 2001 (PIL no. 4) and again in
November 2002 (PIL no. 7)(Tab I).

        With regard to the grant design and the OIG’s recommendation on
third party authorizations, Sec. 5.3 of the Grant Agreement requires that
the grantee make available documents that support deposits and
expenditures from the Separate Dollar Account. This implies that
account statements (which initiate from a third party--in this case the
Federal Reserve Bank of New York) be made available to USAID.
Additionally, Sec. 5.4 of the Grant Agreement indicates that further
reporting requirements would be established in Program Implementation
Letters (PILs). PIL no. 3 further refined those requirements to state:

     Financial records should, at a minimum, include sufficient information
     to document the deposit, withdrawal and disposition of dollar funds
     from the separate special account and permit USAID to track the dollars
     to their final uses, if necessary.

       While the Grant Agreement did not require third party
authorizations as a condition precedent, the language of the agreement
and PIL no. 3, enabled the ANE Bureau to request authorization from the
grantee in order to verify and track their final uses.
                                                                       16
                                                          Appendix II
                                                          Page 3 of 6

        Finally, monitoring activities did occur in spite of the contention
by the OIG to the contrary. The design of the Grant Agreement while not
identifying specifically the types of documents that would be required in
order to effectively monitor the agreement, did allow the ANE Bureau to
request and obtain the documentation necessary for monitoring and
providing information for this audit. Though time consuming, the third
party authorizations eventually obtained, verified banking records as well
as information obtained from the GOP’s creditors.

Monitoring Activity during the Life of the Grant Agreement

        Monitoring the Grant Agreement was handled primarily through
the U.S. Embassy in the early stages of implementation. To refute the
OIG’s remarks “that ANE had not received any of the information listed
in Sec. 5.4 as of May 2002,” reports were submitted to the Embassy in
Islamabad in December and January of 2002 (Tab II). Though these
reports were not complete, ANE worked with Embassy staff to encourage
the GOP to comply fully with reporting requirements (Tab III). During
this time discussions were held between the U.S. Embassy and Ministry
of Finance. Monitoring trips were conducted on the ground in Pakistan
by Embassy staff to look at the effectiveness of the Grant Agreement
before the OIG Audit began. This was reported between Embassy staff in
a memo dated May 8, 2002 (Tab IV).

         The Department of State cable issued prior to the OIG Audit (see
Tab V) indicated that there had been regular discussions between the
Embassy in Islamabad and GOP officials from November 2001 when the
agreement was signed until April 2002 when the cable was sent. The
cable went on to report progress on a number of different aspects of the
grant. It further indicated that monitoring efforts would continue, though
at the time the Embassy was experiencing monitoring problems due to
security constraints.

        In January 2002, U.S. Embassy staff along with an ANE Bureau
representative were able to meet with the Ministry of Finance in
Islamabad and followed up on monitoring issues including the issue of
interest earned on the grant proceeds in the Separate Dollar Account (Tab
III). Further talks in Islamabad in May 2002 pressed the Ministry of
Finance for delinquent quarterly reports, FRBNY account statements and
inquired about actual expenditures for eligible social sector programs
(Tab III). Further reports from the GOP were submitted to the ANE
Bureau in April (again before the OIG began its audit) and June of 2002.
Two additional reports were sent in August of 2002 (Tab II).



                                                                    17
                                                           Appendix II
                                                           Page 4 of 6
        In monitoring activities there was clearly a high level of effort on
the part of the ANE Bureau that included contact with the GOP through
telephone conversations, e-mails, meetings and through PILs.
Furthermore the ANE Bureau in conjunction with the Embassy exhibited
a willingness to elevate monitoring activities by enlisting the assistance
of the Ambassador to call on her counterparts in the GOP when necessary
(Tab VI).

        Just as Embassy staff were constrained in their activities to
monitor the Grant Agreement in Pakistan, the ANE Bureau’s
effectiveness to conduct monitoring activities was also constrained by
security and other issues.

The Constraints on Managing this Activity

        In the early stages of monitoring this Grant Agreement, ANE
encountered a number of constraints some outside of the bureau’s control
that in part, made monitoring difficult.

        The USAID mission closed in 1995 and Pakistan remained a
“non-presence” country until July 15, 2002. On that date USAID
officially re-opened its bilateral program in Islamabad. At the time the
Grant Agreement was signed and during the early period of
implementation, no USAID staff were on the ground in Pakistan. Due to
security restrictions, requests by USAID/Washington staff (FM
Controller, GC Lawyer and ANE Program Officers) to travel to
Islamabad in order to carry out final grant design negotiations with the
GOP and to establish monitoring procedures were denied. All activities
to support the Grant Agreement originated from the USAID offices in
Washington in consultation with the U.S. Department of State and U.S.
Embassy in Islamabad. Monitoring was handled through the use of
Program Implementation Letters (PILs). In all, seven PILs have been
issued to the GOP Ministry of Finance since November 2001, providing
guidance to the grantee and requesting information in order to implement
and perform monitoring under the grant (Tab I). At no time prior to the
signing of the agreement was anyone from USAID permitted to travel to
Islamabad to meet directly with Ministry of Finance.

        In the ANE Bureau, key personnel normally in place in a bureau
to manage these kinds of activities, had not yet been assigned as Pakistan
was still a non-presence country. Simultaneously there was a major
increase in workload placed upon Bureau staff to handle activities for
Afghanistan. The Bureau has been steadily staffing up throughout this
year in an effort to handle the new bilateral programs in both Pakistan
and Afghanistan. The Desk Officer for Pakistan in Washington was in
position by June of this year.

                                                                     18
                                                          Appendix II
                                                          Page 5 of 6
       In the Mission the Mission Director arrived at post in July of this
year and the mission has been staffing up since that time. The Financial
Controller arrived at post on December 13, 2002. Prior to his arrival,
most financial matters for the mission in Pakistan were handled by the
Financial Controller in Manila.

        Issues related to the Grant Agreement could not be addressed
directly to the MOF but had to go through the Pakistan Embassy here in
Washington, which then relayed information on to the GOP counterparts
in Islamabad. In essence there was no one from USAID based on the
ground in Pakistan to engage in monitoring until July of this year when
the Mission Director arrived.

        In mid-August the ANE Bureau arranged to have the services of a
full-time FSO Controller (on family medical leave from her post in
USAID/New Delhi) via USAID’s CFO. Her time was focused primarily
on reconciling Separate Dollar Account transactions, interest earnings
and interest remittances due on the Pakistan cash transfer. During the
next two months, she was able to pursue documentation and/or
authorizations from the Federal Reserve Bank in New York (FRBNY),
the GOP (with assistance from USAID/Islamabad), and all GOP
qualifying creditors under the agreement. The authorizations allowed
USAID to confirm that debt payments were made per the guidance
provided in PIL nos. 4 and 7 (Tab I). In part because of those efforts, the
ANE Bureau was able to collect more than US$4.3 million in earned
interest from the GOP. Final reconciliation of interest due will be done
by the recently arrived Controller in Islamabad.

Government of Pakistan’s Compliance with the Grant Agreement

        The ANE Bureau was able to determine (with a significant
amount of effort on the part of the Bureau and the Mission) that the GOP
had complied with Art. II of the Grant Agreement. The GOP made
eligible debt service payments amounting to US$600 million.
Additionally, the GOP submitted a schedule of total expenditures for
social sector programs of approximately US$1.6 billion during the GOP
FY 2001-2002 (see Tab VII). This information (August 2002) was
provided in support of Sec. 5.2(a)--illustrating expenditures by the GOP
on poverty reduction and social development programs in an amount in
excess of the amount of this grant. It confirms the previously reported
budget allocation of approximately US$1.3 billion reported to USAID on
eligible social sector spending programs reported as part of Condition
Precedent 4.1(c) (15 Nov 2001).

        By complying with this Grant Agreement the GOP was able to
meet its debt service payments and redirect funds to provide assistance to

                                                                     19
                                                      Appendix II
                                                      Page 6 of 6
its people. Through this Grant Agreement the U.S. Government was able
to further foreign policy directives at a crucial time in our history.

Attachments (not included):

Tab 1 – Summary of Program Implementation Letters
Tab 2 – SENSITIVE BUT UNCLASSIFIED Summary of ANE Monitoring
Activities Under Grant Agreement – No. 391-K-005
Tab 3 – E-mail from Del McCluskey to Andrew Katsaros (19 Nov 2001)
Tab 4 – Unclassified Memo from Naheed Aslam to Andrew Haviland (08
May 2002)
Tab 5 – SENSITIVE BUT UNCLASSIFIED Cable from US State
Department PDAS Sison (April 2002)
Tab 6 – E-mail from Andrew Haviland to Del McCluskey (27 Jun 2002)
Tab 7 – Social Sector Program Spending Report from GOP to Mark
Ward (19 Aug 2002)




                                                                20
